Case: 18-14721

Date Filed: 07/17/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-14721-DD
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
versus
BRIAN JAMES HOLLAND,
Defendant- Appellant.
Appeal from the United States District Court
for the Middle District of Florida
ON PETITION/SI FOR REHEARING AND PETITIONS FOR REHEARING EN BANC
BEFORE: JORDAN, ROSENBAUM, and MARCUS, Circuit Judges.
PER CURIAM:

'

. *

The Petition for Rehearing En Bane is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Panel Rehearing is also denied. (FRAP 40)

ORD-46

Case: 18-14721

Date Filed: 12/06/2019

Page: 1 of 15
[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No, 18-14721
Non-Argument Calendar
D.C. Docket No. 3:18-cr-00047-BJD-PDB-l

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
versus
BRIAN JAMES HOLLAND,
Defendant - Appellant.

Appeal from the United States District Court
for the Middle D istriet of Florida
(December 6,2019)
Before MARCUS, JORDAN, and ROSENBAUM, Circuit Judges.
PER CURIAM:

Case: 18-14721

Date Filed: 12/06/2019

Page: 2 of 15

Brian Holland appeals his conviction for aggravated sexual abuse by force, in
violation of 18 U.S.C. § 2241(a)(1). First, he contends that the evidence presented
at trial was insufficient to support his conviction. Second, he argues that the district
court abused its discretion by allowing irrelevant and prejudicial testimony regarding
the dreadlocks he had at the time of the incident. Third, Mr. Holland asserts that the
government’s remarks during closing arguments about his dreadlocks and changed
appearance were so inflammatory and prejudicial that they amounted to
prosecutorial misconduct and deprived him of a fair trial. We affirm.
I
A grand jury indicted Mr. Holland on one count of aggravated sexual abuse
by force, in violation of 18 U.S.C. § 2241(a)(1). The indictment alleged that Mr.
Holland digitally penetrated a female (I.R.) while on a cruise ship within the special
maritime jurisdiction of the United States. i
Mr. Holland pled not guilty. At trial, the parties presented the following
evidence to the jury .

11.R. was over 18 years old at the time of the incident, but she is unable to read or write and is
only capable of doing fourth-grade schoolwork.
2

Case: 18-14721

Date Filed: 12/06/2019

Page: 3 of 15

A
On February 27, 2018, while on a Carnival cruise ship, Mr. Holland sat next
to I.R. in the ship’s hot tub. At the time, Mr. Holland—who is white—had
dreadlocks.
I.R. testified that she tried to move away from Mr. Holland several times, but
he continuously moved closer to her and placed his arm around her. I.R. said that
she told Mr. Holland “stop” and “don’t do that” when he placed his arm around her.
According to I.R., Mr. Holland rubbed her legs and then digitally penetrated her
vagina before she moved his arm away . She stated that it “hurt” inside “[her] private
area” when Mr. Holland did this.
When the government-asked I.R. to ^identify Mr. Holland, he offered to
stipulate that he was the person with her in the hot tub. But the district court allowed
I.R. to identify him. She had to step out of the witness stand to do so because Mr.
Holland looked different without the dreadlocks he had at the time of the incident.
On cross-examination, I.R. testified that Mr. Holland had “crazy hair on the cruise
but looked different at trial.”
A.T., an eyewitness who was also in the hot tub at the time, testified that I.R.
“looked uncomfortable” while Mr. Holland had his arm around her “[b]ecause she
would try and scoot away,” but Mr. Holland would pull her back in. She explained
that she was unable to see I.R.’s reaction to Mr. Holland’s advances because I.R.
3

Case: 18-14721

Date Filed: 12/06/2019

Rage: 4 of 15

was wearing sunglasses. She did not witness any struggle or pushing between I.R.
and Mr. Holland.
K.L., another eyewitness, testified that I.R. seemed uncomfortable because
she would move away from Mr. Holland each time that he would move closer to her
and place his arm around her. She did not hear I.R. tell Mr. Holland to stop. She
also could not see I.R.’s reaction because of her sunglasses, and she did not see a
crime occur. K.L. explained that the bubbles created by the hot tub jets obstructed
everyone’s view of what occurred underwater.
The government asked A.T. and K.L. (both of whom were minors) to identify
Mr. Holland as the man sitting next to I.R. in the hot tub. Both times, Mr. Holland
attempted to stipulate that he was the person sitting next to I.R., but the district court
allowed both witnesses to identify Mr. Holland to the jury.
Agent Kurt Limpert testified that the alleged offense occurred on the high seas
and was committed by an American citizen against an American citizen. As a result,
it fell under federal jurisdiction.
B
I.R. testified that after the incident she left the hot tub and asked guest services
to locate her mother, Janie Crawford. Ms. Crawford testified that when she arrived
at the guest services desk, I.R. was ‘jiorrified,” “livid,” “scared;” and “letout^Uiis
loud screeching cry.”
4

Case: 18-14721

Date Filed: 12/06/2019

Page: 5 of 15

The government asked Ms. Crawford whether she knew how to make
dreadlocks and whether the process is the same for black and white people., She
responded that, black people only have to twist and wash their hair to create
dreadlocks. White people, on the other hand, need “to twist it, then they have to
kink it up, and after a while it [will] start matting up,” and that dreadlocks take years
to grow.
The ship’s onboard physician, Dr. Vusumzi Mbuthuma, performed a physical
examination of I.R. Dr. Mbuthuma’s examination revealed minor scrapes on I.R.’jS
thighs, an abrasion on and around her urethral opening,.and abrasions .on her. vaginal
A fut C
_
...
vestibule and vaginalppening. The examination also revealed that the injuries were
fresh, “as indicated by-fresh blood underneath the soft tissues;-Dr-:■Mbuthumatestified that I.R.’s injuries were “consistent with blunt trauma” and with forceful
digital penetration. He also explained, however, that I.R.’s injuries could have
resulted from consensual sexual contact, some other medical condition, or selfinflicted scratching.
Judy Malmgren, a board-certified forensic nurse examiner, testified on Mr.
Holland’s behalf.

She explained that Dr.. M.huthuma’s report was incomplete

because he failed to take photographs of I.R.’s genital area, and thus posited that the
jury shouldnpt.rely on it. She further explained that self-inflicted scratching, clothes

5

Case: 18-14721

Date Filed: 12/06/2019

Page: 6 of 15

rubbing on.the vaginal area, or yv.etn.ess. in J&e.genital .area could also have caused
the abrasions identified in Dr. Mbuthuma’s report...

c
The district court denied Mr. Holland’s motions forjudgment of acquittal after
each side had rested its case. During closing arguments, the government highlighted
Mr. Holland’s changed appearance between the time of the cruise and trial:
Why is Brian Holland changing his appearance from the
date of the assault to the date he appears here in this
courtroom to face you? Ms. Yazgi said it was because he
wanted to show respect to the Court, get a haircut, buy
some new clothes.... Why -- why would he cut this hair?
Ms. Crawford, I.R.’s mother, told you this isn’t easy to do,
to grow this hair. This takes some time and some effort,
some twisting and some tangling and some matting and
some not washing, and it can take years or so to grow this
hair. He worked on this hair. This was him. This was his
image. This was his persona. This is Brian Holland. And
he didn’t just change its length and its appearance. He
changed it from blond to brown. And why did he do that?
Why change the most distinguishing feature of your
appearance after you've been indicted for a federal crime
in which there were eyewitnesses? To make yourself more
presentable to you or to hide the hot tub jerk, the sexual
assaulter? To make it more difficult for those children to
take the stand and say, “That's the man I saw.”
D.E. 80 at 69-70. Defense counsel, in contrast, explained that Mr. Holland changed
his appearance out of respect for the court and not as an attempt to confuse the
witnesses. Defense counsel did not object any portion of the government’s closing
arguments.
6

Case: 18-14721

Date Filed: 12/06/2019

Page: 7 of 15

The jury returned a verdict of guilty. The district court sentenced Mr. Holland
to 120 months’ imprisonment and five years’ supervised release.
II
Mr. Holland argues that the district court erred when it denied his motion for
judgment of acquittal because the evidence presented at trial was insufficient to
support his conviction. We disagree.
We review de novo whether there is sufficient evidence to support a
conviction. S&eJUnitedMm v. Farley, 607 F.3.dl2?4,1333 (11th Cir. 2010), We
view the record in the light most favorable to the government, resolving all
reasonable inferences in favor of the verdict. See id. We will not reverse a
conviction unless no ^reasonable tder^ fact could find guilt beyond■ axeasqnable
doubt. See id.
dCarw-

Credibility questions are the province of the jury, and we will assume that the
jury resolved all such questions in a manner supporting its verdict. See United States
y. Garcm-B.ercQvicK 582^.344234.,..1238 .(11th. Cir. 2009). Importantly, the
evidence need not exclude every reasonable hypothesis of innocence for a
reasonable jury to find guilt beyond a reasonable doubt. See United States v. CruzValdez, 773 F.2d 1541, 1545 (11th Cir. 1985) (en banc). A jury is free to choose
among alternative, reasonable interpretations of the evidence. See id.

7

Case: 18-14721

Date Filed: 12/06/2019

Page: 8 of 15

Under 18 U.S.C. § 2241(a)(1), an individual is guilty of aggravated sexual
abuse by force when that person (1) is in the special maritime and territorial
jurisdiction of the United States, (2) knowingly causes another person to engage in
a sexual act, and (3) uses force to complete the offense. Se&^g.y.UmtedStates v.
Shaw, 891 F.3d 441, 447-48 (3d Cir. 2018); United States y..Cobenais, 868JF.3d;731,739 (8th Cir, 2017).
Here, viewing the evidence in the light most favorable to the government, a
reasonable factual basis supports Mr. Holland’s conviction. Agent Limpert’s
testimony that the alleged sexual abuse occurred in the special maritime jurisdiction
of the United States satisfied the first element of the offense. As to the second and
third elements, I.R. testified that Mr. Holl^idjdjgi^lX penetrated her as she told him
to stop and pushed his arm away. A.T. andKX. did.not see theallegedsexual abuse,
but they testified fiiat FR. movedaway .from Mr.. Holland.on several occasions, and_
that he continued Jq..either move closen.to...her..o.r pulljher ,clo§er.;ta~him.., .Ms.
Crawford, moreover, testified that I.R. was terrified and cry mg, after, her encounter
with Mr. Holland...Finally .Dr, Mbuthuma.statedthat LR.’s .vaginal injuries<were
consistent witbufbrceful,digital penetration.. Tj)is evidence was; sufficient.
Mr. Holland nevertheless argues that the district court erred in denying his
motion for judgment of acquittal because the government’s evidence was
undermined by contradictory testimony. He highlights that A.T. and K.L. testified
S

Case: 18-14721

Date Filed: 12/06/2019

Page: 9 of 15

that th^yjawno struggl&between himself and I.R. and that they didn^^tft^any
assault. He also stresses Dr. Mbuthuma’s testimony that I.R/sinjjmes“conld h&ye
resulted from consensual sexual ,contact,.pr a jrneclical c.onditjpn^ pausing I.R~,to
scratch the area.”

J***•- iso#-*-'■■■■-

Finally, Ms. Malmgren explained that, according to Dr.

Mbuthuma’s report,
other.m!?;4lc4 complications could haveyalso caused he£ mjurips. She also testified
that Dr. Mbuthuma’s report was incomplete and unreliable because he failed to
include photographs of I.R.’s vaginal injuries.
Mr. Holland’s argument fails. Credibility questions are reserved for the jury,
see Garcia-Bercovich, 582 F.3d at 1238, and the jury was permitted to reject Mr.
Holland’s interpretation of the evidence. “When all ofIhe relevant evidence and
testimony is combined, sufficient evidence exists to support a jury’s conclusion” that
/

Mr. Holland knowingly caused I.R. to engage in a sexual act by force. See id. The
jury was free to and did, in fact, choose an alternative, reasonable interpretation of
the evidence. It chose to believe I.R.’s testimony that Mr. Holland repeatedly pulled
her closer to him, ignored her requests for him to stop, and used force to digitally
penetrate her. It credited A.T.’s and K.L.’s testimony that Mr. Holland kept moving
closer to I.R. each time she moved away, making her visibly uncomfortable. It
elected to believe Ms. Crawford’s characterization of I.R.’s reaction immediately
following her experience in the hot tub. Finally, it chose to accept Dr. Mbuthuma’s
9

Case: 18-14721

Date Filed: 12/06/2019

Page: 10 of 15

testimony that I.R.’s injuries were consistent with forceful digital penetration and
not accepted Ms. Malmgren’s testimony that I.R.’s injuries could have been caused
by something besides forceful digital penetration.
In sum, viewing the evidence in the light most favorable to the government,
the jury could reasonably find Mr. Holland guilty of aggravated sexual abuse by
force beyond a reasonable doubt. Accordingly, the district court did not err when it
denied Mr. Holland’s motions for judgment of acquittal.
Ill
Mr. Holland argues that the district court abused its discretion by allowing
testimony regarding his dreadlocks at the time of the incident because it was
irrelevant and overly prejudicial. We are not persuaded.
We normally review “the district court’s ruling on admission of evidence for
abuse of discretion.” United States v. Jiminez, 224 F.3d 1243,1249 (11th Cir. 2000).
But “fwjhere a defendant fails to clearly state the grounds for an objection in the
district court... [we are] limited to reviewing for plain error,” United States v. Zinn,
321 F.3d 1084,1087 (11th Cir. 2003). A party may establish plain error by showing
that (1) there was an error; (2) the error was plain or obvious; (3) the error affected
his substantial rights in that it was prejudicial and not harmless; and (4) the error
seriously affected the fairness, integrity, or public reputation of the district court
proceedings. See United States v. Olano, 507 U.S. 725, 732 (1993). An error is
10

Case: 18-14721

Date Filed: 12/06/2019

Page: 11 of 15

plain only if it is clear or obvious under current law. See United States v. Daniels,
685 F.3d 1237, 1251 (11th Cir. 2012).
Evidence is relevant if it has any tendency to make a fact more or less probable
and that fact is of consequence in determining the action. See Fed. R. Evid. 401.
Irrelevant evidence is inadmissible. See Fed. R. Evid. 402. Relevant evidence may
be excluded if “its probative value is substantially outweighed by a danger of....
unfair prejudice, confusing the issues, misleading the jury, undue delay, wasting
time, or needlessly presenting cumulative evidence.” Fed. R. Evid. 403.2
Generally, the prosecution is entitled to decide how to prove its case, and a
defendant may not stipulate or admit his way out of the full evidentiary force of the
case against him. See generally Old Chief v.- United-States, 519 U.S. 172, 186-88
(1997), Furthermore, Rule 403 does not preclude the admission of certain evidence
simply because other evidence addresses the same issues. See United States v.
Eyster, 948 F.2d 1196, 1212 (11th Cir. 1991). A party’s offer to stipulate is only
one factor that the district court should consider in making a determination under
Rule 403. See Old Chief, 519 U.S. at 183; United States v. O'Shea, 724 F.2d 1514,
1516 (11th Cir. 1984).

2 Exclusion of evidence under Rule 403 is an extraordinary remedy that should be used only
sparingly. See United States v. Dodds, 347 F.3d 893, 897 (11th Cir, 2003). Furthermore, under
Rule 403 the balance is generally in favor of admissibility, and we “look at the evidence in a
light most favorable to its admission, maximizing its probative value and minimizing its undue
prejudicial impact.” Id. (internal quotation marks omitted).
11

Case: 18-14721

Date Filed: 12/06/2019

Page: 12 of 15

Here, Mr. Holland failed to assert a clear and unequivocal objection to the
admission of testimony about his dreadlocks while on the cruise. When the
government elicited testimony about Mr. Holland’s dreadlocks, he did not object,
but only offered to stipulate that he was the man in the hot tub with I.R. Thus, we
review the district court’s admission of the dreadlocks evidence for plain error.
The testimony about the dreadlocks was relevant because it had a tendency to
make it more probable that Mr. Holland was the person in the hot tub. I.R., A.T.,
and K.L. all identified Mr. Holland as the man in the hot tub, but their identification
was made more difficult because Mr. Holland had changed his appearance before
trial.
Furthermore, the witnesses’ testimony about Mr. Holland’s dreadlocks
potentially enhanced the government’s version of events. The record demonstrates
that I.R. is developmentally disabled and struggles to form coherent stories. Her
ability to recall and describe Mr. Holland’s dreadlocks could be viewed as an
indication that she was telling the truth about the assault. A.T.’s and K.L.’s
descriptions of Mr. Holland’s dreadlocks similarly reinforced their credibility,
especially considering that they were minors.
The government also elicited testimony from Ms, Crawford about the process
of growing dreadlocks. It then used her testimony —that “it takes years” for a white
person like Mr. Holland to grow dreadlocks—and the fact that Mr. Holland cut his
12. .

Case: 18-14721

Date Filed: 12/06/2019

Page: 13 of 15

dreadlocks before trial, to suggest his consciousness of guilt. Mr. Holland argues
that this evidence was “wholly irrelevant,” but the government “may fairly seek to
place its evidence before the jurors, as much to tell a story of guiltiness as to support
an inference of guilt.” Old Chief, 519 U.S. at 188. Ms. Crawford’s testimony was
relevant because it had a tendency to make it more probable that Mr. Holland cut his
dreadlocks to make it more difficult for any witnesses to identify him in court.
Accordingly, the district court did not commit plain error when it failed to
exclude the evidence regarding Mr. Holland’s dreadlocks.
IV
Finally, Mr. Holland contends that the government’s remarks during closing
arguments- about Jiis-dreadlocks were so • inflammatory and prejudicial that they
amounted to prosecutorial misconduct and deprived him of a fair trial. We disagree.
Generally, we review determinations regarding prosecutorial misconduct de
novo. See United States v. Nerey, 877 F.3d 956, 969 (11th Cir. 2017). But if the
defendant failed to specifically object to arguments that he now challenges on
appeal, we review only for plain error. See United States v. Bailey, 123 F.3d 1381,
1400 (11th Cir. 1997). Here, Mr. Holland failed to object to the government’s
allegedmisconduet during closing argument. As noted earlier, we will reverse only
if there was an error that was plain, that affected substantial rights, and that seriously

13

Case: 18-14721

Date Filed: 12/06/2019

Page: 14 of 15

affected the fairness, integrity, or public reputation of judicial proceedings. See
Olano, 507 U.S. at 732.
To establish prosecutorial misconduct based on remarks in closing argument,
the challenged remarks must have been improper and must have prejudicially
affected the defendant’s substantial rights. See Nerey, 877 F.3d at 970. We
generally consider four factors: (1) whether the challenged comments had a tendency
to mislead the jury or prejudice the defendant; (2) whether the comments were
isolated or extensive; (3) whether the comments were deliberately or accidentally
placed before the jury; and (4) the strength of the competent proof establishing the
defendant’s guilt. See United States v. Reeves, 742 F.3d 487, 505 (11th Cir. 2014).
Closing arguments are used to assist the jury in analyzing the evidence. See
id. Although a prosecutor may not exceed the evidence presented at trial during
closing argument, he may state inferences drawn from the trial evidence and urge
the jury to draw conclusions from that evidence. See id.
To assess the prejudicial impact of a prosecutor’s statements, we must
evaluate them in the context of the trial as a whole and assess their probable impact
on the jury. See United States v. Taohim, 817F.3d 1215,1224 (11th Cir. 2013). A
prosecutor’s improper remarks affect a defendant’s substantial rights when there is
a reasonable probability that, but for the remarks, the outcome of the trial would
have been different. See Nerey, 877 F.3d at 970. A prejudicial remark may be
14

Case: 18-14721

Date Filed: 12/06/2019

Page: 15 of 15

counteracted by substantial evidence establishing guilt or rendered harmless by
curative jury instructions. See id.
The district court did not plainly err.

Simply stated, the prosecutor’s

arguments about why Mr. Holland cut his hair were not improper. The prosecutor
used evidence about Mr. Holland’s changed appearance for two reasons: (1) to
explain why I.R, had a difficult time identifying Mr. Holland; and (2) to illustrate
how severely his actions on the cruise affected the witnesses such that they could
still identify him notwithstanding his changed appearance.

The prosecutor’s

arguments were fair comments on the evidence and did not mislead the jury. The
prosecutor highlighted the in-court identification of Mr. Holland by I.R., A.T., and
K.L., as well as Mss: Crawford’s testimony about the uniquely-difficult and long
process for a white person to grow dreadlocks. In doing so, the prosecutor argued
to the jury that Mr. Holland abandoned a physical attribute that took him years to
achieve in hopes of encumbering the witnesses’ ability to identify him.
V
For the foregoing reasons, we affirm Mr. Holland’s conviction.
AFFIRMED.

15

